 THE SEPTEMBER 11 VICTIM
COMPENSATION FUND OF 2001


      U.S. DEPARTMENT OF JUSTICE
    OFFICE OF THE INSPECTOR GENERAL
            AUDIT DIVISION

         AUDIT REPORT 04-01
           October 2003
           THE SEPTEMBER 11 VICTIM COMPENSATION
                       FUND OF 2001

                            EXECUTIVE SUMMARY

       Shortly after the terrorist attacks of September 11, 2001, Congress
passed the Air Transportation Safety and Stabilization Act, Public Law No.
107-42 (the Act). Among other things, this legislation established the
September 11 Victim Compensation Fund of 2001 (VCF or the Fund). The
Fund was designed to compensate individuals who were injured or relatives
of individuals who were killed in the attacks. For fiscal years (FY) 2002,
2003, and 2004, a total of $5.12 billion was budgeted to compensate the
victims and their families. According to the Act, the VCF is scheduled to
sunset on December 22, 2003; no claims may be filed after that date.

       The Act specified that the Attorney General, acting through a Special
Master, would administer the program, promulgate procedures and
substantive rules, and employ and supervise personnel to perform the duties
of the Special Master. The Attorney General appointed a Special Master,
Kenneth Feinberg, who, in conjunction with the Department of Justice
(Department) Civil Division, developed the VCF regulations and the
procedures for processing claims.1 Mr. Feinberg is a Washington, D.C.
attorney who has specialized in mediation, arbitration, and negotiation, and
was the Special Settlement Master for Agent Orange litigation. He and two
employees of his private mediation firm who are involved in the VCF are
providing their services without compensation; the Department is paying for
their expenses.2

       According to the Department, as of August 14, 2003, a total of 2,205
(1,177 death and 1,028 personal injury) claims had been filed, and of these
claims, 451 death and 155 personal injury awards had been accepted or
finalized. The remaining 726 death and 873 personal injury claims were
denied, temporarily suspended, withdrawn, or were in some stage of
processing.




1
  The regulations for the September 11 Victim Compensation Fund of 2001 are codified at
28 CFR Part 104 at 11233 (March 13, 2002).
2
  The Department contracted with the accounting firm of PricewaterhouseCoopers (PwC) in
January 2002 to assist the Special Master and his staff with the administration of the
Fund. PwC operates the Claims Processing Center (CPC) in Arlington, Virginia.



                                          -i-
       The number of claims that actually will be filed before the sunset date
of December 22, 2003, is unknown. During the time of our fieldwork, Fund
officials estimated that the total number of paid claims could reach 3,000
death claims and 300 injury claims. However, in their response to the draft
report dated September 15, 2003, Department officials indicated that the
Special Master is now predicting 3,000 death claims and between 2,500 and
3,000 personal injury claims. If these revised estimates prove accurate, the
Special Master and his staff may see an influx of over 3,700 death and
personal injury claims in the final four months of the program.

       We reviewed various aspects of the Fund to determine how claims
were being processed, including the number of claims filed, the amounts
paid, the consistency and timeliness of the processing, the adherence of the
VCF personnel to the regulations developed in accordance with the Act and
procedures for processing claims developed by PwC and the Special Master’s
office, and the controls in place to identify fraud. We also reviewed the
adequacy of the funds budgeted to pay victims and the preparations for the
deadline for filing a claim on December 22, 2003.

The Award Process

      Each claim begins at the Department’s contractor, PwC, where the
claim form and supporting documents submitted by the claimant are
reviewed against eligibility criteria. The Special Master or his representative
reviews each claim and determines the eligibility status. Claimants who
meet specific criteria may receive Advanced Benefits that are credited
against their final award.

       Once a claimant has been determined to be eligible and the
information needed to calculate a presumptive award has been gathered, the
claim is classified as “substantially complete” and the claim is considered
“filed.” After the claim is substantially complete, the Special Master has
45 days to present the claimant with a presumed award and 120 days to
issue a final award. Also, when the claim is substantially complete, the
claimant is barred from pursuing certain lawsuits such as those against the
City of New York, the airlines, the airports, the Port Authority of New York
and New Jersey, and the security companies involved in the events of
September 11.

      PwC personnel compute a presumptive award using six automated
calculation models prepared for different categories of death claimants:
(1) military personnel, (2) employees of the New York City Fire Department
and the New York City Police Department, (3) federal employees under the
Federal Employees Retirement System (FERS), (4) federal employees under


                                     - ii -
Civil Service Retirement System (CSRS), (5) federal employees covered by
both CSRS and FERS, and (6) everyone else.3 Generally, the amount to
which a claimant is entitled is computed by calculating the claimant’s
economic damages, adding non-economic damages, and then subtracting
qualified collateral sources such as life insurance.

      The economic portion of the award is calculated by determining the
victim’s post-tax income and then, adding in the victim’s employer-provided
benefits, such as bonuses and 401K matches. This figure is then increased
based on the victim’s work-life expectancy and an applicable wage-growth
rate. A percentage representing the victim’s share of household
expenditures and consumption is subtracted, and the final amount is
reduced to present value.

      The non-economic portion of the award (pain-and-suffering) has been
presumptively set at $250,000. For a death claim, $250,000 is awarded for
the decedent, $100,000 for the spouse, and $100,000 for each dependent.
For physical injury claims, the $250,000 presumptive award can be
increased or decreased by the Special Master based on the individual’s
circumstances.

       Once economic and non-economic damages are calculated, qualified
collateral sources must be deducted from this total. Qualified collateral
sources are the benefits the family of the victim has received as a result of
the victim’s death or physical injury. Examples of collateral source benefits
include: life insurance, survivor pensions, Social Security Death Benefits,
past Social Security Survivor Benefits paid to spouses, past and future Social
Security Survivor Benefits paid to children and dependent adults, and past
and future non-contingent Workers’ Compensation Benefits. PwC personnel
review the collateral source benefit information provided by the claimants.
Ideally, the claimant provides on the claim form all of the information
needed to complete the identification and valuation of collateral sources.
However, PwC personnel often need to augment the claim through other
sources, including the Social Security Administration, the victim’s employer,
and third-party payors of the benefits.

     There is no maximum payout established by the Act or the regulations.
However, the regulations establish a minimum award for a single deceased
person, before collateral income sources are deducted, of $300,000, and for
a married deceased person or a deceased person with a dependent of


3
  At the time of our fieldwork, PwC was using six calculation models. In their response to
the draft report, Department officials indicated that a seventh model was now in use
designed for Employee Retirement System (ERS) Port Authority civilians.


                                           - iii -
$500,000. As of June 16, 2003, the average award for a death claim was
$1.44 million, and personal injury awards ranged from $500 to $6.8 million.

Fraud Controls

       VCF personnel also review claims for fraud as they process the claims.
Specifically, fraud detection begins when the PwC staff at the CPC reviews
the claims against eligibility criteria. CPC personnel ensure that the names
of the victim, claimant, and award recipients, are not on the list of terrorists.
They also check the claimants’ names against individuals who have already
been flagged in the VCF’s claim processing system because of suspicious
behavior, either with the VCF or with September 11 charities. For death
claims, PwC staff request that the claimant submit an original death
certificate and at least one other document to corroborate the reported
death. They also check that those original documents, including original
death certificates and original letters of administration appointing the
personal representative, are submitted with claims. VCF personnel stated
that “the single greatest fraud protection in place” is the requirement that
the claimant be appointed the victim’s personal representative because
courts usually appoint personal representatives. Moreover, the individuals
named as distributees of the award under the claimant’s distribution plan
must undergo a Federal Bureau of Investigation (FBI) background check
before being approved to receive their shares of awards. In addition,
physical injury claims require proof of injury through medical records, which
are verified through doctors and hospitals.

      Fund personnel also require proof of collateral source benefits, usually
from employers and the Social Security Administration. They also document
the value of airline death benefits that have been paid to the victims. VCF
personnel also stated that they are trained to ask probing questions of
claimants to determine whether other collateral sources are available.

Audit Testing and Results

       We reviewed various aspects of the Fund to determine how claims
were processed, including the number of claims filed, the amounts awarded,
the consistency and timeliness of the processing, the adherence of the
Special Master to the rules and procedures, and the controls in place to
deter fraud. We limited our review to the 792 claims that had been filed as
of November 13, 2002, the beginning of our audit, and chose samples from
these claims for detailed testing. We reviewed claim files for documentation
of eligibility, economic loss, and collateral sources, and documents in claim
files suspected as fraudulent. For claims included in our samples, we
reviewed data from the Victim Claims Management System, a customized


                                      - iv -
database specifically developed to track VCF claims, to determine the status
and the timeliness of claim processing. In addition, we interviewed officials
from the Civil Division, PwC, and the Special Master’s office.

    A total of 792 claims had been submitted for payment by the VCF as of
November 13, 2002. The status of these claims follows:

              Presumed Award Letters Issued                             92
              Denied or Withdrawn                                       73
              Possibly Fraudulent                                       17
              Awaiting Presumptive Award Calculation                   610
                                                                       792

       Our testing revealed that the number of claims paid as of
November 13, 2002, was relatively low. Of the 792 claims that were filed as
of that date, only 92 had been issued presumed awards.4 For the remaining
claims, the largest category (610 claims) was awaiting award calculations,
and 585 of those lacked sufficient information from the claimant to calculate
a presumptive award.5 In our judgment, these delays occurred despite
efforts by the Special Master and his staff to inform potential claimants of
the Fund and to provide them with assistance in the filing of claims.

       Shortly before the issuance of the draft report, we requested updated
claim statistics from the Civil Division. These figures were received after the
draft report was issued, and, while not audited, demonstrate that
participation in the fund is still quite low approximately four months prior to
the sunset date. The Civil Division reported the following claim status as of
August 14, 2003:

              Presumed Award Letters Issued                             720
              Denied, Withdrawn, or Suspended                           257

4
   Of these 92 claims, 7 claimants had been paid, 60 awards had been accepted by the
claimants but not yet paid, 8 claimants had requested a hearing with the Special Master,
and 17 claimants had not yet responded.
5
  In order to calculate a presumptive award in a death claim, the Special Master requires,
among other documents, copies of all tax returns filed by the victim for 1998-2000; written
proof of salary/wages for 1998-2001 and all other compensation received during those
years (bonuses, commissions, overtime); evidence of employer-provided benefits during
2000 and 2001, including health benefits, pensions, transportation/club/housing allowances,
and 401k; life insurance policies and payments; Social Security and Workman’s
Compensation applications and determinations; and a certified copy of the will, if applicable.
In addition, VCF personnel independently collect other documentation, such as obituaries,
that support the number of the claimant’s asserted dependents.



                                            -v-
              Awaiting Presumptive Award Calculation                    1,228
                                                                        2,2056

The data indicated that of the 1,228 claims waiting presumptive award
calculation, fully 1,048 claims lacked sufficient information to calculate a
presumptive award.

       Our testing to assess the timeliness of claims processing found that
once a claim was substantially complete, the Special Master presented a
final award amount to the claimant in substantially less than the statutory
time frame of 120 days. This was the case for nine of the ten claims in our
sample. The remaining claim was still in process during our fieldwork.
According to our sampled cases, the average number of days to process
substantially complete claims was 35 days.

      With respect to our testing for consistency of treatment, in all of the
cases that we examined, VCF personnel appeared to process claims in a
manner that would maximize award payments. In the cases where
discretion was used, we found justification for the amount of the award in
the claimant files. For example, we found that although the procedures
state that VCF personnel should attempt to calculate representative income
from an average of 1998-2001 annual income figures, in some cases VCF
personnel eliminated one or more years of income from the average because
they were atypically low. The reasons underlying the judgments were
documented in the file.

      Our testing of fraud controls determined that the controls implemented
by VCF personnel appeared adequate to deter fraud. Essentially, fraud
controls include, among others: (1) requirements that certain essential
documents be certified such as death certificates, wills, and court
appointments of personal representatives; (2) submission of third party
documentation such as employer verifications, W-2s and Social Security
determinations; (3) independent verification by VCF personnel of family
structure, medical expenses, and collateral sources; (4) attestation by the
claimant that the information provided is true, complete, and accurate; and
(5) background investigations of all distributees by the FBI. We believe that
these procedures are reasonable and, while time consuming, are necessary
to minimize the payment of a fraudulent claim.

      In addition, Fund personnel forward any claim that is suspected of
being fraudulent to the Department’s Office of the Inspector General (OIG)

6
  The number of potentially fraudulent cases is still reported at 17; however, the Civil
Division did not indicate the categories of these 17 claims in the statistics supplied to us.


                                             - vi -
for investigation. As of November 2002, VCF personnel had referred eight
cases to the Fraud Detection Office (FDO) within the OIG’s Investigations
Division.7 As of July 2003, the FDO reported the following dispositions:

       •   two individuals pleaded guilty to making false statements and mail
           fraud, respectively, and were sentenced;
       •   one individual was acquitted on all counts but is currently being
           held by the Bureau of Immigration and Customs Enforcement
           pending immigration court proceedings;
       •   judicial proceedings continue against four other individuals; and
       •   one individual is still under investigation.

     We also identified two issues during our review that require continued
monitoring and oversight. These issues involve: (1) the large number of
claims that could be filed at the last minute just prior to the VCF’s sunset
date, and (2) whether the $5.12 billion in budgeted funds will be sufficient to
pay all claims.

      Last Minute Claims: The VCF may experience an influx of claims
immediately prior to December 22, 2003, the sunset date for the Fund.
According to the Department, the number of claims submitted as of
August 14, 2003, was 2,205 (1,177 death and 1,028 personal injury), and
the number of awards that had been finalized (track B) and accepted (track
A) was 606 (451 death and 155 personal injury). The number of claims that
actually will be filed before the deadline is unknown, but Fund officials are
now estimating the total number of claims at 3,000 death claims and 2,500
to 3,000 injury claims. Several VCF officials noted that programs such as
the VCF usually experience a surge in the number of claim submissions as
the filing deadline approaches. VCF officials explained that in anticipation of
this surge, they are making efforts now to increase the number of personnel
at PwC and at the Special Master’s office. In addition, the Special Master
has arranged for administrative law judges to be assigned, if necessary, to
assist him with additional hearings. In our judgment, these are reasonable,
proactive measures to address what may be a very large surge in claim
submissions. However, because of the potential volume of claims that could
be filed at the last minute, we believe Fund personnel must continually
monitor the status of claims processing to be able to respond to a potential
surge in claims.

7
   The FDO is a centralized, specialized investigative office in Washington, D.C. that pro-
actively uncovers instances of fraud in connection with Department programs and
operations. Staffed by special agents and forensic auditors, it reviews and investigates
allegations of payment irregularities in contracts, grants, medical services, the management
and sale of seized assets, and the falsification of applications for benefits that fall under the
Department's statutory authority.


                                             - vii -
      Sufficiency of Budgeted Funds: The Act established a permanent and
indefinite appropriation for the VCF. Through 2004, $5.12 billion was budgeted
for the VCF to compensate victims and their families, which appears adequate
for anticipated claims at the current average award levels and should be
sufficient to pay all of the potential claims against the Fund. The expected
amount for physical injury claims is difficult to quantify because awards vary
considerably depending on the specific conditions of each case. However,
based on the final awards as of August 14, 2003, as provided by the
Department, the average personal injury award was $159,072.8 If we apply
this average to the 3,000 claims estimated by the Special Master, and account
for the one awarded and three anticipated high-dollar awards, personal injury
awards would total approximately $504 million. If the anticipated 3,000 death
claims are awarded at the average death award experienced by the VCF
through August 2003, as calculated from the figures supplied to us by the Civil
Division, the Fund will show a surplus of about $27 million, as follows:

    BUDGET PROVISIONS                                                      (dollars in millions)
    2002 (Enacted)                                                                    $ 60
    2003 (President’s Request)                                                         2,700
    2004 (Request)                                                                     2,361
     Total Provisions                                                                 $5,121

    ESTIMATED OUTLAYS
    Average Death Award                                                              $ 1.53
    Anticipated Total Death Awards                                                   X 3,000
     Total Estimated Outlays for Death Awards                                         $4,590

    Average Physical Injury Award                                          $ .159
    Anticipated Total Physical Injury Awards                               X 3,000
     Total Estimated Outlays for Physical Injury Awards Based on Average   $ 477

    High-Dollar Physical Injury Award to Date                              $   6.77
    Anticipated Total High-Dollar Physical Injury Awards                   X      4
     Total Estimated Outlays for High-Dollar Physical Injury Awards        $     27

    Total Estimated Outlays for Physical Injury                                          504
    Total Estimated Outlays                                                           $5,094

    BUDGET PROVISIONS LESS ESTIMATED OUTLAYS                                              $27

          Source: DOJ Civil Division



8
   The Civil Division provided us with unaudited claim statistics current as of August 14, 2003 for
155 personal injury awards. In order to calculate the average personal injury award, we omitted
the highest personal injury award to date, $6.77 million, as it exceeded the next highest award by
over $5.5 million. We projected the average of the remaining 154 awards to the anticipated 3,000
claims. The Special Master’s office indicated that there might be three additional awards that are
similar in amount to the $6.77 million award. Therefore, in order to account for these claims, we
projected $27 million for the four awards.


                                              - viii -
       On January 25, 2003, several potential claimants filed a lawsuit
against the DOJ, the Attorney General, and the Special Master. Similar
lawsuits were filed on February 14, 2003, and February 20, 2003. Among
other issues, the plaintiffs expressed concern about the use of after-tax
income to compute economic loss and alleged that the $231,000 limitation
on income creates an unlawful cap. The court heard oral arguments for all
three lawsuits on April 14, 2003, and ruled against the plaintiffs on all issues
on May 8, 2003. Colaio et al. v. Feinberg et al., No. 03-CV-558, (S.D.N.Y.
May 8, 2003). If the District Court’s ruling is appealed and overturned, the
above computation would require adjustment, and the Fund might require a
significant increase in funding. However, if the Court’s ruling is not
overturned and the above estimates hold true, the Fund may have a surplus
of approximately $27 million.

      The details of our work are contained in the Results of Review section
of this report. Our audit scope and methodology are detailed in Appendix I.




                                     - ix -
                                       Table of Contents

                                                                                                     Page

INTRODUCTION .................................................................................... 1

RESULTS OF REVIEW ............................................................................ 3
  REVIEW OF PROCEDURES AND THE AWARD PROCESS ........................... 3
   CLAIM PROCESSING ............................................................................. 3
     Eligibility .......................................................................................... 3
     Income Verification ............................................................................ 4
     Collateral Source Verification............................................................... 5
   AWARD DETERMINATION ...................................................................... 6
     Use of Calculation Models ................................................................... 6
     Consideration of Extraordinary Circumstances........................................ 6
     Valuation of Physical Injuries............................................................... 7
     Treatment of High Income Claims ........................................................ 8
     Timeliness of Claim Processing ............................................................ 8
     The Budget ....................................................................................... 9
     Preparations for Processing Claims as Deadline Approaches ................... 11
  EXAMINATION OF FRAUD CONTROLS .................................................. 11
  CONCLUSION ..................................................................................... 13

APPENDIX I AUDIT OBJECTIVES, SCOPE & METHODOLOGY ............ 14

APPENDIX II DEFINITIONS ................................................................ 15

APPENDIX III EXPLANATION OF THE CLAIM PROCESS..................... 17

APPENDIX IV AUDITEE’S RESPONSE TO THE DRAFT REPORT .......... 24

APPENDIX V ANALYSIS OF AUDITEE’S RESPONSE TO THE DRAFT
            REPORT....................................................................... 30
                                   INTRODUCTION

       In response to the terrorist attacks of September 11, 2001, Congress
passed the Air Transportation Safety and Stabilization Act, Public Law No.
107-42 (the Act). This legislation, enacted on September 22, 2001,
established the September 11 Victim Compensation Fund of 2001 (VCF or
the Fund) and designated the Attorney General to administer it. Congress
declared that the purpose of the VCF was “to provide compensation to any
individual (or relatives of a deceased individual) who was physically injured
or killed as a result of the terrorist-related aircraft crashes of September 11,
2001.” Victims of September 11 who only experienced economic harm, such
as the loss of employment or property damage, are not entitled to recovery
from the VCF under the Act.

        On November 26, 2001, the Attorney General, in accordance with the
Act, appointed Kenneth Feinberg as the Special Master. In conjunction with
the Civil Division of the Department of Justice (DOJ), he is responsible for
administering the VCF and promulgating the rules necessary for the
program. VCF officials finalized regulations on March 13, 2002 and
developed internal procedures for implementing the regulations.9 Mr.
Feinberg is a Washington, DC attorney specializing in mediation, arbitration,
and negotiation. He previously served as Special Counsel to the Senate
Committee on the Judiciary, worked as an Assistant U.S. Attorney in New
York City, and served as Special Settlement Master involving Agent Orange
litigation. Several of the Special Master’s partners and staff members from
his mediation firm are also working for the VCF, providing eligibility
determinations, verifying original documents, approving Fund distribution
plans, and researching legal questions. Mr. Feinberg and two employees of
his mediation firm who are involved in the VCF are providing their services
without compensation. An additional employee is compensated as a special
government contract employee. The Department is paying for their
expenses.

       On January 9, 2002, the DOJ Civil Division contracted with
PricewaterhouseCoopers (PwC) to assist the Special Master with the
administration of the VCF. As part of the contract, PwC operates a Claims-
Processing Center (CPC) in Arlington, Virginia, for the intake of claims,
review of eligibility factors, procurement and maintenance of necessary
documentation, recommendation to the Special Master of the claimant’s
eligibility status, and computation of presumptive awards using calculation


9
    These regulations are codified in at 28 CFR Part 104 (March 13, 2002) at 11233.
models.10 The PwC personnel do not conduct award hearings; only the
Special Master or his designee conducts hearings and makes final award
determinations. The PwC contract and other Fund administrative expenses
are paid by the Civil Division, and not from VCF appropriations.

       When the Special Master and the Civil Division formulated the
regulations for the Fund, they created a website that provides information on
the Fund, claim forms, information on how to file a claim, and a method for
the public to comment on the Fund. Starting in January 2002, VCF staff
members began an outreach program by holding meetings in major
Northeast cities, as well as in Los Angeles, London, and Australia; sending
letters and full claim packets to prospective claimants on numerous
occasions; running advertisements in newspapers; and setting up nine claim
assistance centers in the Northeast and Arlington, Virginia, to help claimants
file their claims. The VCF began processing advance benefits to eligible
claimants after December 20, 2001, and issued the first final award letters in
August 2002.

       We reviewed various aspects of the Fund to determine how claims
were being processed, including the number of claims filed, the amounts
paid, the consistency and timeliness of the processing, the adherence of the
VCF personnel to the regulations developed in accordance with the Act and
procedures for processing claims developed by PwC and the Special Master’s
office, and controls in place to identify fraud. We also reviewed the
adequacy of the funds budgeted to pay victims and the preparations for the
deadline for filing a claim on December 22, 2003. The details of our audit
objectives, scope, and methodology are contained in Appendix I.




10
   See Appendix II for definitions of commonly used terms and Appendix III for an
explanation of the claim process.


                                          -2-
                              RESULTS OF REVIEW

       Fund officials developed rules and procedures in accordance with
       the Act and are operating within that framework. The awards
       are being made in a consistent and timely manner. Established
       fraud controls also appear adequate to minimize the risk of a
       fraudulent payment. Current funding for the VCF for FYs 2002
       through 2004 appears sufficient to pay all claimants. Fund
       personnel are planning appropriately for a potential surge of
       claims as the application deadline draws near by increasing the
       number of contract personnel and utilizing administrative law
       judges to conduct hearings with claimants.

REVIEW OF PROCEDURES AND THE AWARD PROCESS

       CLAIM PROCESSING11

       Our review concentrated on three primary areas of claim processing:
(1) determination of eligibility, (2) verification of the victim’s income, and
(3) confirmation of the proceeds from collateral sources. We compared VCF
activities in these areas against a random sample of 10 claims from a
universe of 92 claims that had been issued presumed award letters. Our
sample contained nine death claims and one physical injury claim.

              Eligibility

              The VCF procedures require that each death claim establish
       eligibility through: (1) a death certificate, (2) at least one other
       document that confirms the victim’s presence at one of the designated
       locations on September 11, (3) an original court document appointing
       a personal representative to represent the deceased, and (4) proof
       that all interested parties have been notified that the claim is being
       submitted. Physically injured claimants must substantiate their
       presence at one of the specified locations on September 11 and
       provide medical records establishing the nature of their injuries and
       the dates of treatment. For each of the nine death claims in our
       sample, we verified that the file contained an original death certificate
       and at least one other document that substantiated the victim’s death
       on September 11, usually a statement from the victim’s employer that
       the victim was at work on that date. Each death claim file also
       contained an original court document appointing a personal

11
   See Appendix II for definitions and Appendix III for a detailed explanation of the claim
process.


                                            -3-
representative and proof of notification of the claim to other interested
parties. For the one physical injury claim in our sample, the claim file
contained original medical records and a statement from the victim’s
employer that he had been working around the World Trade Center on
September 11.

       Our review was limited to the claims that were submitted by
November 13, 2002, the date of the entrance conference for this audit.
Of the 792 claims that had been submitted as of that date, 73 claims
were denied by the Special Master or withdrawn by the claimant. We
selected a sample of 10 of these 73 claims (9 denied and 1 withdrawn)
to determine whether the reasons for denying a claim were consistent
and whether the reasons for both denials and withdrawals were
documented in the claim files. In our sample, one claim was
withdrawn because the claimant did not realize that she would be
forfeiting her right to sue. In our review of the nine denied claims,
one was a death claim that was disqualified because the claimant was
not the proper personal representative. The remaining eight claims
were physical injury claims that were denied because of insufficient
documentation of the victim’s presence at one of the specified sites,
the victim was not treated by medical personnel within the requisite
period of time (72 hours for rescue personnel and 24 hours for all
others), no medical records were provided, or the injury did not meet
the qualifications established in the regulations. VCF officials denied
five of these eight claims for more than one of the listed reasons.

       Our review disclosed that all of these files were adequately
documented with the reason(s) for the denial. Based on our review,
VCF officials are consistently applying the criteria for claim eligibility
and properly documenting the decisions made about these claims, and
are substantially in compliance with procedures for verifying claimant
eligibility.

      Income Verification

       The VCF procedures require claimants to submit documentation
to verify the victim’s income for calendar years 1998 through 2001.
This documentation includes tax returns, year-end payroll statements,
Internal Revenue Service (IRS) W-2 forms, pension benefits, and the
cost of employer-provided benefits. We reviewed our sample of ten
claims to determine how the VCF staff calculated the victim’s income
for input into the calculation model and whether these income
calculations were made consistently. The victim’s income was only
required for the death claims, which comprised nine of the ten claims


                               -4-
in our sample. The income of the physically injured claimant was not
applicable to his claim, because the award did not include any future
work limitation. For eight of the nine death claims in our sample, VCF
personnel verified the last four years of the claimant’s income through
tax returns or employer statements. In the remaining death claim,
VCF staff members did not find any income for 1998.

      The Special Master has the discretion to use this income
information or to modify it as he deems necessary to arrive at an
income amount that is most representative of the victim’s future
income. This discretion is specifically stated in Section 104.43 of the
regulations:

      The Decedent’s salary/income in 1998-2000 (or for
      other years the Special Master deems relevant) shall
      be evaluated in a manner that the Special Master
      deems appropriate. The Special Master may, if he
      deems appropriate, take an average of income
      figures for 1998-2000, and may also consider
      income for other periods that he deems appropriate,
      including published pay scales for victims who were
      government or military employees.

      Similarly, the VCF procedures that PwC follows in computing the
victim’s representative income to be used in the calculation model also
allow discretion.

      In accordance with these procedures, PwC provided reasons in
the claim files for excluding one or more years of the victim’s income
from the calculation of representative income. For seven of the nine
death claims that we examined, the income used in the calculation
model was higher than the 4-year average. Although VCF personnel
are varying the number of years used to calculate the victim’s income,
this practice is in compliance with the regulations and VCF procedures.
The Special Master stated that he wants to give claimants every
consideration in determining the award amount and to include as
many claimants as possible in the Fund. Based on our review of these
claims, VCF personnel are compliant with the procedures for verifying
the victim’s income.

      Collateral Source Verification

     The Act requires that the award calculation be based on
economic loss plus noneconomic loss less collateral sources of


                               -5-
         compensation.12 Because of the nature of collateral sources,
         verification of their existence can be difficult. For example, if a victim
         has purchased a life insurance policy privately, its existence would be
         unknown to Fund personnel and difficult to identify. Therefore, the
         claim form requires the claimant to verify the accuracy of the
         information included on the form “under penalty of law.” Our sample
         of ten claims included nine death benefit claims and one personal
         injury claim. All of the nine death benefit claims included offsets for
         one or more of the following (frequency of type in parenthesis):
         pensions (1), life insurance (6), social security (4), workmen’s
         compensation (7), employer death benefit (4), or special fund benefits
         (3). The personal injury claim had no offset for collateral sources of
         income. The claim files included notations showing that the case
         manager verified the collateral sources.

         AWARD DETERMINATION

      We examined whether Fund personnel were consistent in the
calculation of award amounts. We reviewed the use of calculation models,
the Special Master’s consideration of extraordinary circumstances, the
valuation of physical injury claims, and the treatment of awards for high-
income victims. We further reviewed the timeliness of the award process,
the sufficiency of budgeted funds to pay all potential claimants, and the
preparations that the staff have made for a last-minute influx of claims.
Each of these areas is discussed below.

                Use of Calculation Models

               When the Fund was established, the Special Master established a
         presumed award methodology. PwC then created calculation models
         for computing presumed award amounts for each claimant. We tested
         the veracity of the presumed award amounts generated by the
         calculation models. Using the PwC calculation models and actual
         presumed award calculations provided to us, we were able to replicate
         the calculation model’s results for the two claims selected.

                Consideration of Extraordinary Circumstances

               After submitting the claim form and receiving notification of the
         presumed award amount generated by the calculation model, the
         claimant can elect to attend a hearing with the Special Master. At this
         hearing the claimant presents additional information describing

12
     See Appendix II for the definition of collateral sources and a list of examples.


                                               -6-
“extraordinary circumstances” that could entitle the claimant to an
award amount greater than the presumed award amount. We found
that the Special Master made a finding of extraordinary circumstances
in 5 of the 92 claims that received presumed award letters. We
reviewed these five claims to determine: (1) what circumstances the
Special Master considered extraordinary to warrant an award above
the presumed award amount, and (2) whether the reasons behind the
Special Master’s findings of extraordinary circumstances appear to be
consistent.

       When the Fund was established, the Special Master set the
noneconomic portion of the award (pain and suffering) for death
claims at $250,000. Therefore, even if claimants were not entitled to
any economic loss because of large collateral source offsets, they
would still be awarded the $250,000 for noneconomic loss. In two of
the five extraordinary circumstances claims, the result was less than
$250,000 after the calculation model computed the economic loss,
added the noneconomic loss, and reduced this amount by the
collateral source offsets. Therefore, these claimants received an
increase to raise the presumed award amount up to the minimum of
$250,000 for noneconomic loss, but no additional amount. In the
other three cases, discretionary amounts were awarded, in addition to
the presumed award amount, for extraordinary circumstances as
follows:

   (1)   replacement services for loss of spouse - $1,992,851;
   (2)   care of the minor child and dependent father - $159,528; and
   (3)   replacement and loss of guidance for the children - $680,006.

These decisions fall within the discretion provided to the Special
Master in the Act.

      Valuation of Physical Injuries

      We reviewed all four of the physical injury claim awards issued
as of November 13, 2002, to determine whether the Special Master is
consistent in his valuation of noneconomic loss for physical injuries.
Two of the injuries appear relatively serious in comparison to the other
two. The Special Master awarded $7,500 to a claimant who suffered
corneal abrasions, and $15,000 to a claimant who suffered an ankle
fracture and a temporary disability. On the other hand, the VCF
awarded $250,000 to a victim with burns, fractures, and a permanent
partial disability and $5 million to a totally disabled claimant who



                               -7-
suffered severe burns. Again, these decisions fall within the discretion
of the Special Master.

      Treatment of High Income Claims

       The maximum starting income used in the calculation model for
the presumed award is $231,000 per year, which, according to VCF
officials, represents income in the 98th percentile for the country. This
limitation is one of the major criticisms of the calculation models raised
by relatives of high-income victims. The VCF’s website explains that
the Special Master limited income to this point because calculations of
larger awards would be highly speculative and would not be necessary
to meet the financial needs of the claimant. In addition, the website
notes that limiting income to $231,000 in the calculation model
lessens the disparity between the awards of high-income and
low-income victims. High-income claimants can request hearings with
the Special Master to present their cases.

      In our review of the 92 claims for which presumed awards had
been issued, we identified 8 claims with $231,000 entered as the
victim’s representative income in the calculation model. Review of the
8 high-income claim files revealed that for 6 of the 8 claims, the
4-year average of the victim’s actual income was greater than
$231,000. For the remaining two claims, the 4-year average of the
victims’ actual incomes (including an annualized amount for 2001)
were less than $231,000 each. However, the projected amounts of
these two victims’ incomes for all of 2001 indicated that they would
have earned more than $231,000 each during that year. We
determined that only one of these eight claimants requested a hearing
with the Special Master. Based on our review, we concluded that the
VCF staff has consistently applied the $231,000 limitation to the
victim’s income when using the calculation models.

      Timeliness of Claim Processing

        We reviewed a sample of 10 of the 92 claims to determine the
timeliness of their processing. We identified three key process dates:
the date the claim is substantially complete and considered filed, the
date the presumed award amount letter is sent to the claimant or the
claimant is notified of eligibility, and the date the final award amount
letter is sent to the claimant. The VCF only deems a claim “filed” once
it is “substantially complete,” meaning that the claimant has submitted
all the information needed to establish eligibility and calculate a
presumptive award. Under Section 104.31 of the regulations, the VCF


                               -8-
has 45 days after a claim has been filed to notify the claimant of the
presumed award amount (Track A claims) or of the claimant’s
eligibility (Track B claims). (See Appendices II and III for the
definition and discussion of Track A and B.) For 9 of the 10 claims in
our sample, the length of time between the date the claim reached
substantially complete status and the date VCF personnel presented a
presumed award amount to the claimant was less than 45 days. VCF
personnel explained that 1 claim required 77 days because of the
claimant’s indecision in selecting Track A or Track B. VCF personnel
noted that the claimant initially selected Track B and the VCF staff
prepared to schedule a hearing, but the claimant decided to switch to
Track A. By the time the claimant switched from Track B to Track A,
the 45-day time limit had already passed. For all 10 claims, the
average number of days that passed between the date filed and the
presumed award date was 12 days. The shortest length of time
between these two dates was 1 day, and the longest was 77 days.
Based on this analysis and using the “filed” criteria, we concluded that
VCF officials are compliant with the 45-day requirement to notify the
awardee.

       Under Section 405(b)(3) of the Act, VCF personnel must provide
the claimant with a final award within 120 days of the date the claim
was filed. For 9 out of 10 claims in our sample, the length of time
between the date the claim reached substantially complete status and
the date VCF personnel presented a final award amount to the
claimant was less than 120 days. The shortest length of time between
the date that the claim was substantially complete and the date that a
final award amount was presented was 10 days, and the longest was
116. The average was 35 days. The remaining claim was still in
process during our fieldwork. Based on our review, and using the
VCF’s definition of “filed,” we determined that VCF officials met the
120-day time limit specified in the Act.

      The Budget

       The Act established a permanent and indefinite appropriation for
the VCF. Through 2004, $5.12 billion was budgeted for the VCF to
compensate victims and their families, which appears adequate for
anticipated claims at the current average award levels and should be
sufficient to pay all of the potential claims against the Fund. The
expected amount for physical injury claims is difficult to quantify because
awards vary considerably depending on the specific conditions of each
case. However, based on the final awards as of August 14, 2003, as
provided by the Department, the average personal injury award was


                               -9-
       $159,072.13 If we apply this average to the 3,000 claims estimated by
       the Special Master, and account for the one awarded and three
       anticipated high-dollar awards, personal injury awards would total
       approximately $504 million. If the anticipated 3,000 death claims are
       awarded at the average death award experienced by the VCF through
       August 2003, as calculated from the figures supplied to us by the Civil
       Division, the Fund will show a surplus of about $27 million, as follows:

        BUDGET PROVISIONS                                                  (dollars in millions)
        2002 (Enacted)                                                                $ 60
        2003 (President’s Request)                                                     2,700
        2004 (Request)                                                                 2,361
         Total Provisions                                                             $5,121

        ESTIMATED OUTLAYS
        Average Death Award                                                           $ 1.53
        Anticipated Total Death Awards                                                X 3,000
         Total Estimated Outlays for Death Awards                                      $4,590

        Average Physical Injury Award                                     $ .159
        Anticipated Total Physical Injury Awards                          X 3,000
         Total Estimated Outlays for Physical Injury Awards Based on
        Average                                                           $     477

        High-Dollar Physical Injury Award to Date                         $    6.77
        Anticipated Total High-Dollar Physical Injury Awards              X       4
         Total Estimated Outlays for High-Dollar Physical Injury          $      27
        Awards

        Total Estimated Outlays for Physical Injury                                      504
        Total Estimated Outlays                                                       $5,094

        BUDGET PROVISIONS LESS ESTIMATED OUTLAYS                                          $27

              Source: DOJ Civil Division


             On January 25, 2003, several potential claimants filed a lawsuit
       against the DOJ, the Attorney General, and the Special Master.
       Similar lawsuits were filed on February 14, 2003, and February 20,
       2003. Among other issues, the plaintiffs expressed concern about the
       use of after-tax income to compute economic loss and alleged that the
       $231,000 limitation on income creates an unlawful cap. In one of the
13
    The Civil Division provided us with unaudited claim statistics current as of August 14, 2003 for
155 personal injury awards. In order to calculate the average personal injury award, we omitted
the highest personal injury award to date, $6.77 million, as it exceeded the next highest award by
over $5.5 million. We projected the average of the remaining 154 awards to the anticipated 3,000
claims. The Special Master’s office indicated that there might be three additional awards that are
similar in amount to the $6.77 million award. Therefore, in order to account for these claims, we
projected $27 million for the four awards.


                                           - 10 -
      lawsuits, a plaintiff alleged that although the calculation methodology
      computed her award to be between $14.5 and $15 million, the Special
      Master informed her that he would only allow her a $4.5 to $6 million
      award. The plaintiff alleged that the expert she hired to do an
      independent analysis of her claim found that the plaintiff should be
      entitled to an award between $28.5 and $40.1 million. The court
      heard oral arguments for all three lawsuits on April 14, 2003, and
      ruled against the plaintiffs on all issues on May 8, 2003. Colaio et al.
      v. Feinberg et al., No. 03-CV-558, (S.D.N.Y. May 8, 2003).

             If the District Court’s ruling is appealed and overturned, the
      above computation would require adjustment and the Fund might
      require a significant increase in funding. However, if the Court’s ruling
      is not challenged and the above estimates hold true, the Fund may
      have a surplus of approximately $27 million.

            Preparations for Processing Claims as Deadline
            Approaches

            According to the Department, as of August 14, 2003, 2,205
      claims had been submitted, and 606 awards had been finalized or
      accepted. The number of claims that actually will be filed before the
      December 22, 2003 deadline is unknown. Furthermore, the Civil
      Division informed us in its response to the draft report that the Special
      Master hopes to arrange for major advertising to run beginning in
      September 2003 to notify potential claimants that time is running out.
      Several VCF officials noted that programs such as the VCF usually
      experience a surge in the number of claim submissions as the filing
      deadline approaches. VCF officials explained that in anticipation of this
      surge, they are “making efforts now to increase the number of
      personnel” at PwC and at the Special Master’s office. In addition, the
      Special Master has arranged for administrative law judges to be
      assigned, if necessary, to assist the Special Master with additional
      hearings. Based on these efforts, we concluded that the VCF is
      appropriately preparing for this anticipated surge in claim submissions.

EXAMINATION OF FRAUD CONTROLS

       We reviewed the established claim process to determine what controls
Fund personnel have implemented to minimize the possibility that a
payment will be made on a fraudulent claim. We examined the claimant
files that the VCF staff identified as potentially fraudulent, noted the actions
that the VCF had taken to support these suspicions, and spoke with
investigators about those claims that had been forwarded to their unit.


                                     - 11 -
       Primarily, VCF personnel rely on multiple verifications of each
claimant’s eligibility, economic loss, and collateral sources to detect fraud.
For instance, to verify the victim’s death, VCF officials require primary
documentation, such as a death certificate, with secondary documentation,
such as an employer’s affidavit that the victim was at a specified site on
September 11. To combat fraudulent representations of income, VCF
officials review both the victim’s IRS W-2 forms and the Social Security
Administration’s payment histories. During the claim review, the victim’s tax
returns and the family structure reported in the obituaries are used to
confirm the number of dependents. As a result, several VCF personnel
stated they believed it is highly unlikely a claimant would be able to move a
false claim through the entire system.

      Despite their efforts, VCF personnel noted that valuation fraud,
specifically of privately purchased collateral sources, could escape detection.
For example, one official noted that a victim’s individually purchased life
insurance policy, which was not reported on the claim form, would be
“virtually impossible to detect.” VCF personnel stated that they rely on the
threat of prosecution to prevent this fraud.

      The Fund’s use of multiple sources to corroborate claim information
has been effective in identifying suspected fraudulent claims. In particular,
many of the 17 claims identified as possibly fraudulent were for victims
whose names were not found on any of the victim lists. Also, in several
cases, verification of a document with its creator, such as medical records
through the named hospital or a death certificate from a foreign country,
exposed the document as fake. When a claim is suspected to be fraudulent,
PwC officials send the claim to the Special Master’s office. If the Special
Master’s office agrees, the claim is sent to the Fraud Detection Office (FDO)
within the OIG’s Investigations Division or to the FBI.14

      Of the 17 claims that the Special Master identified as potentially
fraudulent, 8 claims were determined not to be fraudulent and were
returned to processing. Of the remaining nine claims, the Special Master
referred eight cases for investigation to the FDO and one to the FBI. As of
July 2003, the FDO reported the following dispositions:


14
    The FDO is a centralized, specialized office within the OIG Investigations Division tasked
with pro-actively uncovering instances of fraud in connection with Department programs
and operations. Staffed by special agents and forensic auditors, it reviews and investigates
allegations of payment irregularities in contracts, grants, medical services, the management
and sale of seized assets, and the falsification of applications for benefits that fall under the
Department's statutory authority.


                                             - 12 -
      •   Two individuals pleaded guilty to making false statements and mail
          fraud, respectively, and were sentenced.

             o Tyrone Darks, a death row inmate in Oklahoma, pleaded
               guilty to making false statements in connection with two
               fraudulent claims he submitted to the VCF. Darks claimed
               that his wife and children were killed at the World Trade
               Center. Darks was sentenced to 12 months to be served
               concurrently with his death sentence.

             o Tommie Martin pleaded guilty to mail fraud for submitting a
               fraudulent application in which she claimed that her brother, a
               New York City firefighter, was killed in the terrorist attacks.
               The FDO developed evidence that Martin did not have a
               brother who was a firefighter killed in the attacks. She was
               sentenced to serve 18 months in prison.

      •   One individual was acquitted on all counts but is currently being
          held by the Bureau of Immigration and Customs Enforcement
          pending immigration court proceedings.

      •   Judicial proceedings continue against four other individuals.

      •   One individual is still under investigation.

      It is also important to note that the FDO is working with State Regional
Fraud Task Forces and other OIG investigative field offices to bring these
cases to closure. Based on our review of these claims and the VCF’s claim
processing procedures, we concluded that the controls to detect fraud are
reasonable.

CONCLUSION

       We found that VCF personnel substantially comply with the rules and
procedures developed in accordance with the Act. Based on our review of a
sample of claims, VCF personnel process claims and issue awards in a
consistent and timely manner. Controls incorporated into the system are
reasonable to identify potentially fraudulent claims and serve to minimize
the risk of a fraudulent payment. The VCF appears to have sufficient funds
to pay all claimants considering the dismissal by the District Court of three
lawsuits against the VCF. In anticipation of a large influx of claims as the
sunset date approaches, Fund personnel are taking appropriate steps to
prepare for this potential surge of claims, primarily by increasing staff.



                                      - 13 -
                                                               APPENDIX I

       AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY

       The purpose of this audit was to determine, in conformance with the
Act’s requirements, the effectiveness of the process created to compensate
the victims and their families. Our objectives were to: (1) review the
procedures established by the Special Master appointed by the Attorney
General to administer the Fund, (2) analyze the award determination
process to determine whether the program’s compensation awards to
claimants are consistent and timely, and (3) examine the Fund’s fraud
controls, specifically in relation to how fraudulent claims are identified and
how the collateral sources of claimants are reviewed and verified.

      We conducted our audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States and,
accordingly, included such tests as were considered necessary to accomplish
our objectives.

       We obtained an understanding of the VCF and its procedures by
reviewing the VCF’s website and by examining numerous newspaper and
media articles related to the Fund. In addition, we reviewed pertinent
documents including the Act which established the VCF, the Interim Final
Rule, the Final Rule (the regulations), the VCF standard operating
procedures, claim forms, and award calculation models. We conducted
interviews with officials from the DOJ, PwC, and the Special Master’s law
office. Our fieldwork was performed through March 13, 2003, at the
Washington, D.C. offices of the Civil Division, the CPC in Arlington, Virginia
operated by PwC, and the Washington, D.C. law office of the Special Master.
In addition, we reviewed claim files located in PwC’s Arlington, Virginia
offices. In some cases, our samples were randomly selected; in other cases,
we expanded our review to examine 100 percent of claims with specific
characteristics.




                                     - 14 -
                                                                APPENDIX II

                               DEFINITIONS

Advance Benefits – Fixed awards of $50,000 for claimants of deceased
victims and $25,000 for physically harmed victims payable within 15 days
after the claimant is determined to be eligible.

Calculation Model – A computerized computation of the presumptive award
amount based on economic loss plus noneconomic loss less collateral
sources of compensation.

Claim Assistance Site - An office location manned by PwC personnel where
potential claimants can obtain or submit claim forms and receive assistance
in filling out the claim forms.

Collateral Sources – These include payments from life insurance, pension
benefits, death benefits, and payments by federal, state, or local
governments related to the terrorist-related aircraft crashes of
September 11, 2001, but do not include charitable donations and contingent
payments.

Final Award – This is the last amount determined in the award determination
process and is the amount paid to the claimant once the claimant approves
it.

Presumed Award – The first award amount issued by the Special Master to
the claimant, which may be different from the presumptive award.

Presumptive Award – The award amount calculated by PwC using the
calculation model.

Representative Income – The amount determined by review of historical
data for the years preceding September 11 that best typifies the victim’s
current and potential earnings.

Special Master – The individual appointed by the Attorney General to
administer the VCF.

Substantially Complete – Status of a claim achieved when there is enough
information in the file to establish the claimant’s eligibility and to calculate a
presumptive award.




                                      - 15 -
Track A – The claim processing option whereby, once the claimant’s
eligibility is determined, PwC uses the calculation model to calculate the
presumptive award, and following review and approval by the Special
Master, the claimant receives notification in writing of the presumed award
amount. The claimant can accept the presumed award and receive payment
or the claimant can seek a higher award through a hearing with the Special
Master.

Track B – The claim processing option whereby, once the claimant’s
eligibility is determined, the claimant is notified in writing of his or her
eligibility, but is not provided with a presumed award amount. The claimant
instead proceeds to a hearing with the Special Master to present his or her
claim and have the Special Master calculate the final award.




                                   - 16 -
                                                                 APPENDIX III

              EXPLANATION OF THE CLAIM PROCESS

Eligibility

       PwC staff receives the claim and reviews the claimant’s eligibility
based on the Act and the regulations. PwC provides the Special Master with
an eligibility recommendation, and the Special Master then makes a final
determination. To be eligible to file a death claim, the victim must have died
while present at one of the sites or from injuries sustained at one of the sites
on September 11. To be eligible to file a physical injury claim, the victim
must have been present at one of the sites on September 11 and have
suffered a physical injury that required in-patient hospitalization for at least
24 hours or “caused, either temporarily or permanently, partial or total,
physical disability, incapacity, or disfigurement.” The claimant must also
have sought medical attention within 24 hours of sustaining the injury;
however, this time requirement was expanded to 72 hours for rescue
personnel.15 VCF procedures require that each death claim must contain:
(1) a death certificate, (2) at least one other document that confirms the
victim’s presence at one of the designated locations on September 11, (3)
an original court document appointing a personal representative for the
deceased, and (4) proof that all interested parties have been notified that
the claim is being submitted. Physically injured victims must substantiate
their presence at one of the designated locations on September 11 and
provide medical records establishing the nature of their injuries and the
date(s) of treatment. Two PwC officials review all recommendations of
eligibility before submitting their recommendation to the Special Master.
The Special Master reviews the eligibility recommendations and makes a
final decision on the claimant’s status.

Advance Benefits

       Under the regulations, some claimants have the option of receiving
Advance Benefits. Advance Benefits are designed to assist claimants who
are financially troubled. Death claimants are entitled to Advance Benefits if
they have not received more than $450,000 in collateral source
compensation. Physical injury claimants must have undergone at least one
week of hospitalization to be eligible to receive Advance Benefits. All
Advance Benefits that are awarded are credited against the claimant’s final
award.

15
   September 11 Victim Compensation Fund of 2001, 28 CFR Part 104.2 (March 13, 2002)
at 11233.


                                       - 17 -
Award Process

       After VCF officials determine a claimant is eligible, they review the
claim to assure that all necessary information has been included in the file.
When all relevant documentation is received, VCF personnel classify the
claim as “substantially complete” and it is formally considered “filed.” At this
point, the claimant waives his or her right to file a civil action for damages
sustained as a result of these terrorist related aircraft crashes of
September 11. PwC personnel then use a computer model to calculate a
presumptive award. The Special Master has 45 days to present the claimant
with a presumed award amount and 120 days to present the claimant with a
final award amount.

      The presumptive award amount is computed using a calculation model
and data taken from the claim file. The Act requires that the award
calculation be based on economic loss plus noneconomic loss less collateral
sources of compensation (see detailed discussion below). Thus, claim form
data includes the victim’s income, age, family structure, and dependent
information in addition to the proceeds from collateral sources. VCF
procedures require claimants to provide documentation of the victim’s
income for calendar years 1998 through 2001. This documentation can be
in various forms, including tax returns, employer-provided information, and
Social Security Administration records. The claim form requires that
claimants accurately divulge this information under penalty of law. While
the methodology used to calculate the awards is not explained in the
regulations, the VCF’s website does explain the calculations for potential
claimants.

      We obtained the models used to calculate the presumptive awards
from PwC.16 These calculation models are used only for death claims;
physical injury claims are handled on a case-by-case basis. PwC has six
calculation models for different categories of death claimants: (1) military
personnel, (2) employees of the New York City Fire Department and the New
York City Police Department, (3) federal employees under the Federal
Employees Retirement System (FERS), (4) federal employees under Civil
Service Retirement System (CSRS), (5) federal employees who switched
from CSRS to FERS, and (6) all others.



16
   In their response to the draft report, the DOJ Civil Division informed us that a seventh
model had been developed since our on-site review. This model is designed to calculate
presumptive awards for Employee Retirement System (ERS) Port Authority civilians.


                                           - 18 -
Economic Loss

PwC personnel calculate the economic portion of the presumptive
award by determining the victim’s income, subtracting federal, state,
and local taxes, and then adding in the victim’s employer-provided
benefits, such as bonuses and 401K matches. This figure is increased
based on the victim’s work-life expectancy and an applicable
wage-growth rate is then applied. A percentage representing the
victim’s share of household expenditures and consumption is
subtracted, and the whole amount is reduced to present value.

Noneconomic Loss

       The VCF set the noneconomic portion of the award
(pain-and-suffering) at $250,000. For a death claim, the VCF
automatically awards $250,000 for the decedent with an additional
$100,000 for the spouse and $100,000 for each dependent of the
decedent. For physical injury claims, the Special Master can increase
or decrease the $250,000 presumptive amount based on the
individual’s circumstances. For example, he awarded $7,500 to a
claimant who suffered corneal abrasions, and $15,000 to a claimant
who suffered an ankle fracture and a temporary disability. On the
other hand, he awarded $250,000 to a victim with burns, fractures,
and a permanent disability, and $5 million to a totally disabled
claimant who suffered severe burns.

Collateral Sources

       Once PwC personnel calculate the economic and noneconomic
damages, they deduct qualified collateral sources from this total.
Qualified collateral sources are the benefits the family of the victim
received as a result of the victim’s death or physical injury. As a
general rule, payments from charities and contingent payments are
not considered qualified collateral sources. An example of a
contingent payment is future Social Security Survivor Benefits paid to
a spouse. Because such payments end if the spouse remarries, Fund
personnel cannot accurately calculate the value of such payments over
the spouse’s lifetime. Ideally, the claimant provides on the claim form
all of the information needed to complete the identification and
valuation of collateral sources. However, PwC staff often have to
augment the claim through other sources, including the Social Security
Administration, the victim’s employer, and the third-party payors of
the benefits. Examples of collateral source benefits that the VCF must
deduct to calculate a final award include the following:


                             - 19 -
                 •   life insurance
                 •   survivor pensions
                 •   Social Security Death Benefits
                 •   past Social Security Survivor Benefits paid to spouses
                 •   past and future Social Security Survivor Benefits paid to
                     children and dependent adults
                 •   past and future non-contingent Workers Compensation
                     benefits.

            No maximum payout is established by the Act or the regulations;
     however, the regulations do establish minimum awards before
     collateral sources are deducted. For a single deceased person, the
     minimum is $300,000, and for a married deceased person or a
     deceased person with a dependent the minimum is $500,000. In
     addition, the Special Master noted that it would be very rare for a
     death claimant to receive less than $250,000. During our interview
     with the Special Master, he explained that he established this policy
     because he wants as many victims as possible to file claims with the
     Fund. If potential claimants find that they are not entitled to any
     compensation, they would have no incentive to participate in the Fund.

Hearings

      When submitting their claims to the VCF, claimants select either the
Track A or Track B claim-processing option. Regardless of whether a
claimant selects Track A or Track B, the Special Master will conduct a
hearing for any claimant that desires one. In some cases the Special Master
communicated with them before their claims were even submitted to the
VCF. Because these claimants were given an opportunity early in the
process to discuss their claims with the Special Master, a formal hearing was
not needed.

Number of Claims Filed and Processed

      As of the beginning of our fieldwork on November 13, 2002, the
Special Master had determined presumed awards for 92 of the 792 claims
submitted.




                                    - 20 -
                       STATUS OF CLAIMS SUBMITTED

     Total Claims Submitted                                   792
        Total Claims With Presumed Awards                            92
        Total Claims Denied/Withdrawn                                73
        Total Claims Possibly Fraudulent                             17
        Total Claims Awaiting Presumptive Award                     610

     Source: PwC

      Of the 92 claims that had been issued presumed award letters, 7 had
been paid, 60 had been accepted by the claimants but not yet paid, 8
claimants requested hearings with the Special Master, and 17 claimants had
not responded.

       Of the 610 claims that were waiting for a presumptive award,
claimants had not submitted the information required for PwC to perform the
calculations for 585 (95.9 percent) of the claims. VCF personnel could not
identify any one stumbling block to the claimants’ completion of these
claims, but they provided the following examples of problems that have been
encountered:

        •   many claimants did not understand that they had to go to court
            to be appointed as the personal representative in order to
            provide the VCF with their letters of administration;
        •   some claimants found it difficult to obtain and submit original
            documentation of compensation amounts, confirmation of
            collateral sources, and proof of the victim’s presence at the
            applicable site;
        •   claim form processing was delayed because claim forms were
            completed incorrectly, many because claimants signed or
            initialed the forms in the wrong places;
        •   claimants refused to sign the lawsuit waiver until they were
            provided with award amounts; and
        •   processing delayed by claimants who, with the advice and
            assistance of outside professionals, added extraneous
            information to their claim submissions, such as home movies
            and greeting cards, which do not affect the calculation models,
            but do add to claim intake and review time.

      VCF personnel also indicated that the employer-provided information
has improved over time and that some employers have even created
resources to assist claimants in filling out claim forms and to explain the
employer-provided benefits to the claimant.


                                   - 21 -
      The following charts contain unaudited statistics provided by Civil
Division regarding the types of claims submitted to the Fund and the number
of award letters issued as of August 14, 2003. Of the estimated 3,000
potential death claims, claimants had submitted 1,177 claims to the VCF.
For these 1,177 claims, the Special Master issued presumed awards to 532
claimants. In addition, although the Special Master now estimates that up to
3,000 physical injury claims would be eligible for compensation from the
Fund, 1,028 physical injury claims had been submitted. The Special Master
denied 180 of these 1,028 claims because of the claimant’s ineligibility and
issued presumed awards for 188 of the remaining claims.

                             CLAIM TYPE STATISTICS

                                Estimated                        Percent of
                                Number of           Number       Potential
              Type of            Potential         of Claims      Claims
               Claim              Claims           Submitted
               Death               3,000             1,177             39
           Physical Injury         3,000             1,028             34
               Total               6,000             2,205             37
              Source: Civil Division

                           AWARD LETTER STATISTICS

                                                   Percent of     Percent of
                                                    Awards         Awards
              Type of            Number of            per            per
              Award               Award             Claims        Potential
              Letter17            Letters          Submitted       Claims
               Death                451                38             15
           Physical Injury          155                15             5
               Total                606                27             10
              Source: Civil Division

Efforts to Increase Participation

      To publicize the existence of the VCF to potential claimants, Fund
personnel began a series of projects in early 2002. These included holding
town hall meetings in affected cities, running newspaper ads, distributing
mass mailings, and setting up Claim Assistance Sites (CAS). VCF personnel
noted that the VCF procedures were designed so that claimants do not need
a lawyer and could bring the documents into the CAS to have VCF personnel
17
   We are including as an “award letter” those awards accepted under track A and finalized
through hearings under tracks A and B.


                                          - 22 -
assist them in filling out the claim form. In August 2002, the VCF had nine
CASs in operation. Because of decreased demand for assistance, one of
those sites has been closed. All but two of the remaining eight are running
on appointment-only schedules. In addition to the above activities, VCF
personnel communicated with September 11 charities and courts that have
contact with victims and their families to obtain their cooperation in notifying
potential claimants of the existence of the Fund. According to the Civil
Division’s response to the draft report, the Special Master anticipates
running additional advertising beginning in September 2003 in addition to
other outreach activities such as town hall meetings to alert potential
claimants that the filing deadline is approaching.




                                     - 23 -
                              APPENDIX IV

AUDITEE’S RESPONSE TO THE DRAFT REPORT




               - 24 -
- 25 -
- 26 -
- 27 -
- 28 -
- 29 -
                                                                APPENDIX V

                   ANALYSIS OF AUDITEE’S RESPONSE
                        TO THE DRAFT REPORT

      We reviewed the Civil Division’s response to the draft report and
modified the report where warranted. However, we would like to comment
on some issues raised by the Civil Division as noted in the paragraphs below.

       In its response to the draft report, the Civil Division indicated that the
actual number of claims filed as of June 16, 2003, differed from the number
of claims identified in the draft report. In the interest of presenting current
conditions of the Fund, we obtained updated figures from the Civil Division
following issuance of the draft report, and those statistics were used to
prepare the final report. Wherever these statistics appear in the final report,
we emphasize that these figures are unaudited.

      The Civil Division also indicated that the Special Master is now
estimating that the number of personal injury claims could be between
2,500 and 3,000. At the time of our fieldwork, this estimate was 300 claims.
In order to determine if budgeted funds would be sufficient to pay all claims,
we used the highest estimate of 3,000 personal injury claims paid from the
Fund.




                                     - 30 -
